VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                            Review of 

                                                                       the Special Initiative 

                                                                    To Process Rating Claims 

                                                                     Pending Over 2 Years 





                                                                                        July 14, 2014
                                                                                        13-03699-209

             ACRONYMS AND ABBREVIATIONS


FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
STR          Service Treatment Record
VA           Veterans Affairs
VARO         VA Regional Office
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Review of VBA’s
                   Special Initiative To Process Rating
                   Claims Pending Over 2 Years

Why We Did This Review                           issued. We estimated 6,860 provisional
                                                 ratings were still waiting for final decisions
On April 19, 2013, the Veterans Benefits         as of January 2014, 6 months after the
Administration (VBA) began a Special             Initiative had ended. Because VBA did not
Initiative to process all claims pending over    ensure existing controls were functioning as
2 years. VA Regional Office (VARO) staff         needed to effectively identify and manage
were to issue provisional ratings for cases      provisionally-rated claims, some veterans
awaiting required evidence and complete          may never have received final rating
these older claims within 60 days. Our           decisions if not for our review.
review focused on whether (1) provisional
ratings resulted in veterans receiving           Additionally, VBA did not accurately
benefits more quickly and helped eliminate       process 77 (32 percent) of 240 rating
the backlog, and (2) older claims were           decisions we reviewed under this Initiative.
accurately processed under the Special           Generally, these errors occurred because
Initiative.                                      VAROs felt pressured to complete these
                                                 claims within VBA’s 60-day deadline. We
What We Found                                    estimated     VARO        staff inaccurately
                                                 processed 17,600 of 56,500 claims, resulting
The Special Initiative rating process was less
                                                 in $40.4 million in improper payments
effective than VBA’s existing rating process
                                                 during the Initiative period.
in providing benefits to veterans quickly.
Further, VBA removed all provisional
claims from its pending inventory, despite       What We Recommend
more work being needed to complete them.         We recommended the Under Secretary for
This process misrepresented VBA’s actual         Benefits establish controls for all
workload of pending claims and its progress      provisionally-rated claims, reflect these
toward eliminating the overall claims            claims in VBA’s pending workload
backlog.                                         statistics, expedite finalization of provisional
                                                 ratings, and review for accuracy all claims
At the end of June 2013 following                that received provisional ratings under the
completion of the Special Initiative, VBA        Special Initiative.
reported 516,922 rating claims pending in its
backlog, but only 1,258 rating claims            Agency Comments
pending over 2 years.        We estimated
7,823 provisionally-rated claims had been        The Under Secretary for Benefits concurred
removed from the inventory though they still     with our recommendations. Management’s
awaited final decisions.      These claims       planned actions are responsive and we will
represented less than 2 percent of VBA’s         follow up as required on all actions.
reported backlog, but about 12 percent of
claims completed under the Initiative.
                                                            LINDA A. HALLIDAY
VAROs did not prioritize finalization of the            Assistant Inspector General
provisionally-rated claims once they were                for Audits and Evaluations
                                     TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              Provisional Ratings Were Not Fully Effective in Meeting Special 

                           Initiative Goals ....................................................................................................2
 

                           Recommendations ...............................................................................................9
 

    Finding 2              VBA’s Special Initiative Did Not Always Provide Accurate Rating 

                           Claims Decisions...............................................................................................10
 

                           Recommendation...............................................................................................15
 

Appendix A                 Background .......................................................................................................16
 

Appendix B                 Scope and Methodology....................................................................................18


Appendix C                 Comparison of Intermediate and Provisional Rating Processes .......................19


Appendix D                 Statistical Sampling Methodology ....................................................................20


Appendix E                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................22
 

Appendix F                 Under Secretary for Benefits Comments ..........................................................23


Appendix G                 Office of Inspector General Contact and Staff Acknowledgments...................26


Appendix H                 Report Distribution ...........................................................................................27

                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years



                    INTRODUCTION
Objective           This review focused on whether the Veterans Benefits Administration’s
                    (VBA) policy for completing provisional ratings was effective in meeting the
                    goals of providing veterans’ compensation benefits more quickly and helping
                    to eliminate VBA’s claims processing backlog. We also assessed whether
                    VBA followed policy and ensured accuracy under its Special Initiative to
                    Process Rating Claims Pending Over 2 Years (Special Initiative).

VBA’s Special       At the end of March 2013, VBA reported nearly 43,000 rating claims were
Initiative          pending more than 2 years. On April 19, 2013, VBA began its Special
                    Initiative to prioritize and complete all claims received on or before
                    July 1, 2011, within 60 days. VBA instructed VA Regional Office (VARO)
                    staff to produce two categories of rating decisions—final ratings and
                    provisional ratings. VAROs were to issue final ratings with appeal rights for
                    ready-to-rate claims and for cases where they assigned the highest evaluation
                    in the VA Schedule for Rating Disabilities for each claimed disability.

                    VBA directed VARO staff to issue provisional ratings for cases awaiting
                    certain evidence, such as private treatment records. However, staff could not
                    issue provisional ratings if there were outstanding requests for certain
                    evidence, such as VA medical examinations and service treatment records
                    (STRs). Staff were to process claims based on available evidence, as long as
                    they notified veterans of the information necessary to support their claims.
                    No appeal rights were given for provisional decisions. Final decisions
                    provided for appeal rights 1 year after notice of provisional decisions, upon
                    requests from veterans, or sooner if all evidence was received during the
                    1-year period after the provisional decision.

                    VBA expected this Special Initiative would clear the inventory of the oldest
                    pending claims and help reduce the overall backlog of claims pending over
                    125 days, which VBA reported was approximately 588,000 claims as of the
                    end of March 2013. VBA also expected provisional ratings would allow
                    veterans to receive compensation benefits more quickly.

Scope of            We reviewed a statistical sample of 240 claims processed under the Special
Review              Initiative from April 19, 2013, through June 19, 2013, comprising 205 final
                    ratings and 35 provisional ratings. Thirty claims were completed at each of
                    the following VAROs: Cleveland, OH; Columbia, SC; Houston, TX;
                    Huntington, WV; Lincoln, NE; Los Angeles, CA; New York, NY; and
                    Waco, TX.

Other               	 Appendix A provides pertinent background information.
Information
                    	 Appendix B provides details on our scope and methodology.
                    	 Appendix C provides a comparison of intermediate and provisional rating
                       processes.


VA Office of Inspector General                                                                     1
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years



                    RESULTS AND RECOMMENDATIONS
Finding 1 	         Provisional Ratings Were Not Fully Effective in Meeting
                    Special Initiative Goals

                    Provisional ratings were not fully effective in meeting goals of the Special
                    Initiative. In comparison with VBA’s existing intermediate rating process,
                    provisional ratings provided some claims decisions more quickly; however,
                    they did not allow veterans’ compensation benefits to be granted more
                    quickly. Appeal rights for provisional ratings were also delayed until claims
                    finalization. Further, VBA removed provisionally-rated claims from the
                    pending inventory although additional work was needed to finalize these
                    claims. This process ultimately misrepresented VBA’s actual workload of
                    pending claims and the progress toward eliminating the overall claims
                    backlog. Appendix C provides a comparison of the intermediate and
                    provisional claims rating processes.

                    This occurred because VBA did not adequately focus on expediting benefits
                    delivery and ensuring finalization of provisional ratings under the Special
                    Initiative. The provisional ratings policy provided decisions to veterans
                    faster; however, it did not promote quicker delivery of benefits to aid
                    veterans. Further, removing provisionally-rated claims from the pending
                    inventory was inappropriate since work on these claims was not complete.
                    VAROs also did not place a priority on finalizing provisional claims once
                    they were no longer considered part of the backlog. We estimated
                    6,860 veterans who received provisional ratings were still waiting for final
                    decisions as of January 2014, 6 months after the Special Initiative had ended.
                    Further, because VBA did not ensure existing controls were functioning as
                    intended to effectively identify and manage provisionally-rated claims, some
                    veterans may never have received final decisions if not for our review.

Some                The provisional rating process was less effective than VBA’s existing
Decisions           intermediate rating procedure in providing benefits to veterans quickly. On
Provided More
Quickly, But
                    May 22, 2013, the Under Secretary for Benefits stated in testimony before
Not Benefits        the House Committee on Veterans’ Affairs that provisional ratings allowed
                    many veterans who had waited the longest to begin collecting compensation
                    benefits more quickly. However, we determined that in comparison with
                    VBA’s existing intermediate rating process, provisional ratings allowed
                    claims to be denied more quickly, but benefits could not be granted more
                    quickly. Appeal rights for provisional ratings were also delayed until claims
                    finalization.

                    VARO staff used intermediate ratings to grant any benefit and defer a
                    decision on any issue requiring additional evidence until that evidence is
                    received. This procedure ensures veterans receive benefits at the earliest



VA Office of Inspector General                                                                     2
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    possible date. Under the Special Initiative, however, VBA prohibited staff
                    from issuing intermediate ratings. Staff also could not defer any issues,
                    which would have kept these provisional claims pending in VBA’s backlog.
                    The provisional rating process required that staff decide all issues and close
                    the claims.

Claims Denied       In comparison with the existing intermediate rating process, provisional
More Quickly        ratings provided decisions more quickly in cases where all issues in the
                    claims were denied. We found that in 20 of 35 provisional ratings, VARO
                    staff denied all issues claimed by the veterans without waiting for supporting
                    evidence. In fact, the use of provisional ratings allowed staff to deny these
                    veterans’ claims and remove them from the backlog prior to obtaining the
                    required evidence. If intermediate rating procedures had been used, these
                    claims would have remained pending in the backlog until staff obtained the
                    evidence required to make final decisions.

Benefits Not        Provisional ratings did not allow staff to grant any benefits more quickly.
Granted More        Among the remaining 15 provisional ratings, VARO staff granted one or
Quickly             more of each veteran’s claimed issues, resulting in some entitlements to
                    benefits such as service connection or increased compensation. Use of the
                    existing intermediate rating process in these cases would have provided the
                    same benefits to veterans.

                    In some cases, intermediate ratings could have granted veterans’ benefits
                    sooner than provisional ratings. Using the intermediate rating procedure,
                    staff could have provided decisions and granted entitlement to some benefits
                    immediately in situations where staff were waiting for evidence to
                    substantiate other issues in the claim. However, under the Special Initiative,
                    VARO staff were prohibited from granting any benefits on a claim while
                    there were pending requests for evidence to complete the claim, such as VA
                    medical examinations and STRs.

Appeal Rights       Provisional ratings delayed veterans’ appeal rights while they waited for
Delayed             final decisions. According to established VBA policy, a veteran has 1 year
                    from the date VA mails a notice of a claim decision to file an appeal. Upon
                    receipt of an appeal, VARO staff can review its merits and grant additional
                    benefits, if warranted, without regard to the original decision. In the case of
                    an intermediate rating, a veteran is entitled to appeal some decisions while
                    VARO staff defer other claimed issues requiring additional evidence.

                    Under the guidance of the Special Initiative, a veteran could not appeal any
                    decision in a provisional rating. In spite of VBA officials stating that
                    provisional ratings protect veterans’ appeal rights and effectively extend the
                    appeal window, we found this did not hold true. Provisional ratings actually
                    delayed veterans’ appeal rights until final decisions were made on their
                    claims. Once provisional ratings are finalized, veterans receive the standard
                    1 year to appeal the final decisions.


VA Office of Inspector General                                                                     3
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Misrepresentation   With the inception of the Special Initiative, VBA instituted two changes that
of VBA’s            misrepresented its reported progress toward eliminating the backlog as well
Workload
                    as other claims processing statistics.

                    First, VBA normally defines claims as pending until all required actions are
                    completed. Under the Special Initiative, VBA considered claims to be
                    complete upon issuance of provisional ratings, even though final decisions
                    had not been made. VBA removed these provisionally-rated claims from the
                    backlog while veterans were still awaiting final decisions. This made the
                    backlog appear lower as provisional ratings were issued.

                          For example, at the end of June 2013, following completion of the
                          Special Initiative, VBA reported 516,922 rating claims pending in
                          its backlog, but only 1,258 rating claims pending over 2 years.
                          For that same time frame, we estimated 7,823 veterans with
                          provisionally-rated claims that had been removed from the
                          inventory were still waiting for final decisions.            These
                          7,823 provisionally-rated claims represent less than 2 percent of
                          VBA’s reported backlog. However, they represent approximately
                          12 percent of claims completed under the Special Initiative.

                    The policy change led to inaccurate reporting of VBA’s workload statistics
                    on the number of pending claims and how long they remained pending, as
                    well as the number of completed claims and how long it took to complete
                    them. With intermediate ratings, claims remain pending from the date VA
                    receives the claims until all issues are decided, accurately reflecting VBA’s
                    pending and completed workloads. However, using provisional ratings,
                    VBA’s pending workload appeared lower, and its completed workload
                    appeared better than it actually was by counting claims as completed before
                    work was actually finished.

                          For example, VBA reported that as of the end of June 2013, all
                          rating claims had been pending an average of 237.9 days.
                          However, we estimated the average days pending at 244.5 days
                          for all rating claims, including provisionally-rated claims.

                    Second, VBA normally measures the number of days a claim is pending
                    from the date of claim, defined as the earliest date VA received the claim in
                    any of its facilities. However, following receipt of additional evidence on a
                    provisional rating, staff were to establish a new rating claim using the date of
                    receipt of that evidence as the new date of claim. This policy change kept
                    the newly established claims from immediately becoming part of the
                    backlog, making the claims appear more recent than they actually were. This
                    also made VBA’s workload statistics on average days claims were pending
                    appear even smaller. Then, once staff issued final ratings, it appeared that
                    VBA completed these claims twice, calculating the average days to complete
                    claims to be even lower.


VA Office of Inspector General                                                                     4
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                          For example, in one case, VARO staff at one facility completed a
                          provisional rating, denying one issue while they waited for
                          additional evidence. They closed the claim with the provisional
                          rating. The VARO took credit for completing this claim in 806
                          days. VBA also no longer considered this veteran to have a
                          rating claim pending while the VARO waited for required
                          evidence to support the one provisionally-denied issue. Upon
                          receiving the additional evidence, VARO staff established another
                          rating claim, which they reported completing in 1 day after they
                          issued a final rating. However, this veteran actually waited a
                          total of 901 days to receive a final decision on the entire claim.

Lack of Focus       Under the Special Initiative, VBA lacked focus on expediting benefits
on Expediting       delivery and ensuring finalization of provisional ratings. The provisional
Benefits
Delivery and
                    ratings policy resulted in decisions that removed these claims from the
Finalizing          pending inventory, but did not promote quicker delivery of benefits to aid
Provisional         veterans. VAROs also did not place priority on finalizing provisional claims
Ratings             once they were no longer considered part of the backlog.

                    We estimated 6,860 veterans who received provisional ratings during the
                    Special Initiative were still waiting for final decisions as of January 2014,
                    6 months after the Initiative had ended. Further, in 3 of 35 cases we
                    reviewed, VBA did not ensure existing electronic system controls were in
                    place to identify and manage claims that received provisional ratings. As a
                    result, some veterans with provisionally-rated claims may never have
                    received final decisions if not for our review. Information identifying these
                    claims was provided to VBA during the course of our inspection.

Policy Did not      VBA’s Under Secretary for Benefits set expectations that provisional ratings
Result in           would provide benefits more quickly. Specifically, in an April 19, 2013,
Quicker             news release announcing implementation of the Special Initiative, the Under
Benefits
                    Secretary for Benefits stated, “Issuing provisional decisions not only
Delivery
                    provides veterans with applicable benefits much more quickly, but also gives
                    them an additional one-year safety net to submit further evidence should it
                    become available.”       The Under Secretary echoed this statement in
                    May 22, 2013, testimony before the House Committee on Veterans’ Affairs,
                    indicating that provisional ratings allowed many veterans who had waited the
                    longest to begin collecting compensation benefits more quickly. Further,
                    VBA public affairs guidance, which provided answers to anticipated
                    questions about the Special Initiative, repeated the Under Secretary’s
                    remarks cited in the April 19, 2013, news release.

                    Despite the expectations set forth, discussions with senior VBA officials
                    disclosed that the Special Initiative policy was to help quickly provide
                    decisions to veterans who had been waiting for excessive time, and process
                    and remove the oldest claims from VBA’s inventory. This was part of



VA Office of Inspector General                                                                     5
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    VBA’s overall strategy to meet the Secretary’s goal of eliminating the claims
                    backlog by 2015.

                    VBA’s Director of Compensation Service further stated that the Special
                    Initiative was necessary to focus VAROs nationwide on the backlog since
                    the business practices in effect could not successfully eliminate it. The
                    Director said VBA wanted to move large pieces of the backlog, and
                    provisional ratings enabled them to close these claims. Other VBA officials
                    concluded the Special Initiative was the right thing to do for veterans who
                    had waited the longest for decisions on their claims. When provisional
                    ratings were no longer needed, VBA discontinued this rating process.

                    Although the Director of Compensation Service said provisional ratings
                    provided veterans with decisions more quickly, he was unable to provide a
                    scenario where provisional ratings delivered benefits more quickly than
                    intermediate ratings. We found that with this Special Initiative, VBA
                    actually created a new practice that adversely affected some veterans. In
                    contrast to previously established procedures, VARO staff could issue
                    provisional ratings and close claims without obtaining all required evidence.
                    Per VBA policy, staff were then to eliminate the claims from the inventory
                    since they had rated all of the issues, thereby supporting the Special
                    Initiative’s intended focus of helping eliminate the backlog.

                    Given these outcomes, several managers and staff at VAROs we visited told
                    us that provisional ratings were a bad idea and negatively impacted veterans.
                    We received similar feedback from staff at the Boston, Phoenix, and Seattle
                    VAROs that provisional ratings were not good for veterans because they had
                    not obtained all required evidence. Without all required evidence, veterans
                    may not receive correct benefits or all benefits to which they are entitled.

Lack of Priority    Generally, VAROs did not place priority on tracking and finalizing
on Finalizing       provisionally-rated claims once they were no longer considered part of the
Provisional
Claims
                    backlog. Management and staff at the Cleveland, Columbia, Houston, and
                    Los Angeles VAROs told us that these claims were not priorities. They
                    focused on processing claims still included in the pending workload, which
                    they prioritized based on the date they were received. The Director of
                    Compensation Service stated that VAROs had been directed to work
                    provisionally-rated claims and provide final decisions; he did not know why
                    staff were not following this guidance.

                    Further, provisionally-rated claims were not prioritized after staff received
                    additional evidence to process final decisions on these claims. Per VBA
                    guidance, staff were to establish a new rating claim after closing a
                    provisionally-rated claim using the date VA received additional evidence as
                    the new date of claim. By not using the date each claim was originally
                    received, these claims appeared much newer than they were and lost the
                    processing priority they should have received based on their true age. We


VA Office of Inspector General                                                                     6
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    determined that if staff had completed intermediate ratings instead of
                    provisional ratings, these claims would have remained pending in the
                    backlog and the claims would have received commensurate priority and an
                    appropriate level of transparency based on their date of receipt.

                    As a result of the lack of priority on finalizing provisional ratings, many
                    veterans were still waiting to receive final benefits decisions months after the
                    initiative had ended. As of September 2013, VARO staff had not completed
                    final ratings in 29 (83 percent) of 35 cases we reviewed.

                    	 In 12 of the 29 cases, VARO staff had taken no action to obtain the
                       missing evidence needed to make decisions on the provisionally-rated
                       claims. For example, in 1 of the 12 cases, the Los Angeles VARO
                       transferred a claim to the Huntington VARO for processing. Huntington
                       VARO staff issued a provisional rating because they needed Federal
                       records to support one issue they provisionally denied; as such, they
                       returned the case to Los Angeles. Los Angeles VARO staff had taken no
                       action to obtain the Federal records as of September 2013. By that time,
                       over 4 months had elapsed from the date of the provisional rating. In
                       total, the veteran had been waiting over 3 years and 1 month to receive a
                       final decision. However, VBA no longer included this claim as pending
                       in the backlog because of the provisional rating.
                    	 Staff initiated efforts to obtain required evidence such as VA medical
                       examinations and federal records in 4 of the 29 provisional cases, but had
                       not yet received it.
                    	 In the remaining 13 cases, VARO staff completed efforts to obtain the
                       missing evidence but had not yet issued final ratings. In 1 of these
                       13 cases, Los Angeles VARO staff issued a provisional rating because
                       they needed a VA medical examination for one issue they provisionally
                       denied. Staff received the VA examination on May 24, 2013. Over
                       3 months elapsed after receipt of the VA examination, but staff had not
                       completed a final rating at the time of our review in September 2013.
                       The veteran had been waiting over 2 years and 2 months to receive a
                       final decision, but VBA did not consider this claim as pending in the
                       backlog because of the provisional rating.

                    We reviewed the electronic record for the 29 provisionally-rated claims
                    again in January 2014 to determine whether VARO staff had finalized them.
                    Only three additional cases received final decisions from September 2013 to
                    January 2014. The remaining 26 veterans had been waiting for final
                    decisions an average of over 3 years from the date VA originally received
                    these claims.

                    Using its method of calculating workloads, VBA reported only 224 rating
                    claims pending over 2 years as of the end of December 2013. However,
                    based on our sample results, we estimated 6,860 veterans who had received


VA Office of Inspector General                                                                     7
                        Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    provisional ratings on their aging claims were still waiting for final decisions
                    at that time.

Controls            VBA did not always ensure existing controls were functioning as intended to
Lacking to          ensure finalization of provisional claims. For intermediate ratings, VARO
Ensure Claims
Finalization
                    staff controlled and completed claims using existing end products for
                    monitoring and managing the pending workload.1 In contrast, after clearing
                    provisionally-rated claims from the pending inventory, VARO staff were
                    required to establish and maintain new controls—end products as well as
                    suspense diaries—in the electronic system as a reminder of the need for
                    future actions to finalize these claims. Staff were required to identify
                    instances where these controls were related to provisionally-rated claims,
                    given that the controls were not originally designed for provisional rating
                    purposes.

                    We found this policy change increased the potential for staff to lose control
                    of these claims. Specifically, in 3 of 35 claims with provisional ratings,
                    VBA did not ensure existing required controls were in place to track and
                    finalize these claims. In all three cases, VARO staff established controls at
                    the time they issued provisional ratings but removed them prior to
                    completing final decisions on all claimed issues. As a result, these veterans’
                    claims had the potential to never receive final decisions with appeal rights if
                    we had not identified them during our review. VBA needs to take steps to
                    ensure it does not lose control of all other provisionally-rated claims.

                    Moreover, we are concerned that VBA did not have adequate controls in
                    place to accurately identify all provisionally-rated claims that needed to be
                    tracked and managed through to finalization. In August 2013, VBA
                    provided us with a list of 7,513 cases with provisional ratings completed
                    under the Special Initiative. However, VBA’s list included 232 claims that
                    did not have a date of claim on or before July 1, 2011. Further, 10 of the
                    35 provisional ratings that were part of our sample were not included on
                    VBA’s list. Interviews with VBA management revealed they did not have a
                    way to guarantee they identified all provisional ratings to process the further
                    actions needed.

Conclusion          VBA planned the Special Initiative to help veterans who had been waiting
                    the longest for benefits decisions. However, VBA created procedures
                    involving provisional ratings that were inconsistent with existing workload
                    practices and misrepresented VBA’s workload statistics and progress
                    towards eliminating the claims backlog. Because of the provisional rating
                    policy, veterans still awaiting final decisions were negatively affected
                    because their claims were no longer a priority. The only decisions VBA

                    1
                      End products are the work units VBA uses to properly control pending workloads and
                    appropriately measure work credit. End products have specific codes to identify types of
                    claims or actions required.


VA Office of Inspector General                                                                            8
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    could provide more quickly using provisional ratings were denials. Such
                    provisional rating decisions could not be appealed until the claims were
                    finalized, which often was not a priority. We concluded use of the existing
                    policy and processing of intermediate ratings would have been more
                    beneficial to veterans. Because VBA has already stopped allowing
                    provisional ratings, we made no recommendation to discontinue this policy.

                    Recommendations

                    1.	 We recommended the Under Secretary for Benefits implement a plan to
                        identify all provisionally-rated claims and ensure the proper controls are
                        entered in the electronic system to track, manage, and complete them.

                    2.	 We recommended the Under Secretary for Benefits implement actions to
                        include provisionally-rated claims in the rating inventory and correct the
                        aging of provisional claims in pending workload statistics.

                    3.	 We recommended the Under Secretary for Benefits implement a plan to
                        expedite final decisions on all issues in provisionally-rated claims.

Management          The Under Secretary for Benefits concurred with our recommendations and
Comments            directed a complete review of all provisional rating decisions on
                    June 2, 2014. Further, VBA established procedures to closely monitor
                    and track provisional claims under end product (EP) 934. Finally, VBA has
                    provided direction to VAROs on the review and finalization of provisional
                    rating decisions. VBA anticipates completion of these recommendations by
                    September 1, 2014.

OIG Response        The Under Secretary for Benefits comments and actions are responsive to
                    the recommendations. However, VBA must ensure provisional claims
                    are identified and strictly controlled so they can be completed. VBA
                    also must ensure provisional claims are included in their inventory to
                    accurately reflect claims processing timeliness.




VA Office of Inspector General                                                                     9
                       Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


  Finding 2           VBA’s Special Initiative Did Not Always Provide
                      Accurate Rating Claims Decisions

                      VBA did not accurately process 77 (32 percent) of 240 rating decisions in
                      our statistical sample of claims completed under the Special Initiative.
                      Generally, errors associated with ratings completed under the Special
                      Initiative occurred because VARO management and staff felt pressured to
                      complete these claims within VBA’s 60-day processing deadline. We
                      project that VARO staff inaccurately processed 17,600 of 56,500 claims,
                      resulting in about $40.4 million in improper payments during the period of
                      the Special Initiative.
Inaccuracies          VARO staff incorrectly processed 29 (83 percent) of 35 provisional rating
in Claims             decisions. VAROs issued provisional ratings for cases awaiting certain
Processing
                      evidence, such as private treatment records. Following are types of
                      inaccuracies related to provisional decisions processed by VARO staff under
                      the Special Initiative.

                      	 Issued provisional ratings without acquiring and reviewing the required
                         minimal level of evidence, such as VA examinations and STRs.
                      	 Issued provisional ratings, but failed to establish all required controls in
                         the electronic system for follow-up actions.
                      	 Issued provisional ratings, but failed to decide all issues claimed by
                         veterans.
                      	 Assigned incorrect effective dates for payment of compensation benefits
                         associated with veterans’ disabilities.
                      	 Issued provisional ratings even though final decisions were warranted
                         because VBA had received all evidence required to support final ratings.
                      	 Issued a provisional rating and incorrectly provided the veteran with
                         appeal rights, which were not allowed under the Special Initiative.

                      Further, VARO staff incorrectly processed 48 (23 percent) of 205 final rating
                      decisions we reviewed. VAROs issued final ratings for ready-to-rate claims
                      and for cases where they assigned the highest evaluation in the VA’s
                      Schedule for Rating Disabilities for each claimed disability. Following are
                      types of inaccuracies related to final decisions processed by VARO staff
                      under the Special Initiative.

                      	 Did not obtain all evidence required to decide the claims, such as VA
                         examinations and medical treatment records.
                      	 Assigned incorrect evaluations for veterans’ disabilities.
                      	 Assigned incorrect effective dates for payment of compensation benefits
                         associated with veterans’ disabilities.


  VA Office of Inspector General                                                                    10
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                     	 Did not decide all issues claimed by veterans or inferred under VBA
                        policy.
                     	 Did not properly notify veterans of decisions made or of the evidence
                        required to support their claims.
                     	 Completed final ratings but did not establish or maintain end products to
                        control additional required actions.
                     	 Did not reduce or discontinue veterans’ compensation benefits as
                        required by VBA policy.
                     	 Incorrectly granted service connection for a veteran’s disabilities.
                     	 Did not document historical claims decisions in the electronic system as
                        required by VBA policy.
                     	 Did not take action to reopen a veteran’s previously denied claim as
                        required by VBA policy.

Management           In 14 (18 percent) of 77 cases, VARO management did not agree with errors
Views on             we identified. However, management was unable to provide any regulation
Inaccuracies
Identified
                     or policy to warrant a reversal of our determinations. Cases where VARO
                     management disagreed with our findings follow:

                     	 In two cases, staff at the Huntington and Lincoln VAROs determined
                        STRs were incomplete, and incorrectly issued provisional ratings while
                        requests for these records were outstanding. However, management felt
                        they could issue provisional ratings because they had some STRs. VBA
                        officials said they would make sure that applicable STRs were available
                        in all cases, and staff were prohibited from issuing provisional ratings
                        while there were outstanding requests for STRs.
                     	 In two cases, the Lincoln VARO incorrectly issued provisional ratings
                        while VA medical examination requests were pending. Staff requested
                        new VA examinations because they determined the examinations of
                        record were insufficient. Management felt it could issue provisional
                        ratings in these cases since VA examinations were of record, albeit
                        insufficient. However, VBA policy states that all necessary VA
                        examinations must be completed and of record prior to issuing a
                        provisional rating.
                     	 In one case, the New York VARO issued a final rating and assigned an
                        incorrect evaluation for a veteran’s service-connected migraine
                        headaches.     A Rating Veterans Service Representative (RVSR)
                        misinterpreted the medical evidence and assigned a 10 percent
                        evaluation. Management felt the condition still warranted a 10 percent
                        evaluation based on the frequency of the veteran’s headaches, but they
                        did not take into account the severity of the headaches. Based on both
                        the frequency and severity of the headaches, a noncompensable
                        evaluation was required per VA’s Schedule for Rating Disabilities.


 VA Office of Inspector General                                                                    11
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    	 In one case, the Waco VARO issued a final rating based on insufficient
                       medical evidence. Management stated the final decision was based on
                       current medical evidence that was deemed sufficient for rating purposes.
                       However, VARO staff noted the available evidence was unreliable, and
                       more current evidence had not yet been received. Although VARO staff
                       should have waited to obtain complete and up-to-date medical evidence,
                       they said management directed them to decide the claim based on the
                       evidence of record. Issuing the final rating without available evidence
                       resulted in an unsupported increase in the combined rating to 90 percent
                       disabling, and the veteran’s compensation increased by $213 per month.
                       Without medical evidence to properly support the disability percentage,
                       VBA lacks assurance that the veteran is receiving correct monthly
                       payments.

Inaccuracies        Generally, these errors occurred because VARO management and staff felt
Were Due to         pressured to complete Special Initiative claims within VBA’s 60-day
Pressure to
Process
                    processing deadline. For example, staff at the Houston, Huntington, and
Claims              Waco VAROs reported they felt pressured to make final or provisional
                    decisions without all of the necessary evidence in order to close the claims.
                    Similarly, management at the Houston and New York VAROs felt that
                    mistakes could have been the result of pressure to complete the Special
                    Initiative on time.

                    VBA mandated that quality continue to be assessed on decisions made under
                    the Special Initiative. However, management at the Lincoln and Waco
                    VAROs discontinued quality reviews on these claims for the final 2 weeks of
                    the Special Initiative due to pressure to meet the processing deadline.
                    Further, management at the Los Angeles VARO directed staff, “When in
                    doubt, rate provisionally. Don’t be afraid to ‘go there’. The[y] … [local and
                    national quality reviewers] are not calling errors on provisional ratings.”

                    Under the Special Initiative, VBA implemented a new policy for provisional
                    ratings that was significantly different from existing rating procedures. The
                    Director of Compensation Service stated VAROs had numerous questions
                    about the policy and could have interpreted the guidance inconsistently to
                    process provisional ratings. We found noncompliance among provisional
                    ratings where, in order to make decisions within the deadline, VARO
                    management made local policy determinations that violated Special Initiative
                    evidence requirements. For example, at the Lincoln VARO, some
                    management and staff stated the Special Initiative guidance was confusing.
                    However, they did not seek clarification, but instead, they used their own
                    interpretations of the guidance to process the claims because of pressure to
                    meet the deadline.

                    Further, at the Los Angeles VARO, management inappropriately directed
                    staff to complete provisional ratings without obtaining required VA medical
                    examinations in order to complete claims by the processing deadline. In


VA Office of Inspector General                                                                    12
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                     December 2013, we issued a Management Advisory to the Under Secretary
                     for Benefits discussing this inappropriate guidance and the resultant
                     inaccuracies in processing provisional ratings at this VARO. We indicated
                     that VBA provided data showing the Los Angeles VARO completed
                     532 provisional rating decisions between April 19 and June 19, 2013.
                     VARO staff completed 470 of those 532 provisional rating decisions after
                     the conflicting guidance was disseminated on May 14, 2013. Ten of the
                     11 provisional rating decisions that we reviewed at this VARO were
                     noncompliant and were completed after May 14, 2013.

                     VARO staff became aware of the conflicting guidance on June 17, 2013, two
                     days prior to the end of the 60-day claims processing initiative and issued
                     corrective guidance. Despite issuance of this guidance, we were concerned
                     that a similar high error rate potentially existed among the remaining
                     460 claims that the VARO processed after the guidance was disseminated.
                     In response to our Management Advisory, the Under Secretary stated she
                     was aware of the incorrect guidance at the Los Angeles VARO and that they
                     took action “to ensure full compliance with VBA policies and guidance.”

Inaccuracies         As a result of the processing inaccuracies, veterans did not consistently
Resulted in          receive correct benefits decisions. Based on our sample projection results,
Incorrect
Benefits
                     we project VARO staff inaccurately processed 17,600 of 56,500 claims,
Decisions            resulting in $40.4 million in improper payments.

                     For the eight VAROs included in our review, Table 1 on the next page
                     reflects the errors affecting veterans’ benefits, those with the potential to
                     affect veterans’ benefits, and those that did not comply with requirements of
                     the Special Initiative and had no effect on benefits. Claims with more than
                     one type of error are included in multiple categories.

            Table 1. Disability Claims Processing Accuracy Under the Special Initiative
                                                                         Claims             Claims
                                                       Claims
                                                                      Inaccurately       Inaccurately
                                                    Inaccurately
                      Total          Claims                            Processed          Processed
       Type of                                       Processed
                      Claims      Inaccurately                        With Potential       With No
       Decision                                       Affecting
                     Reviewed      Processed                            To Affect          Effect on
                                                     Veterans’
                                                                       Veterans’          Veterans’
                                                      Benefits
                                                                        Benefits           Benefits
       Provisional
                        035            29                02                 08                 26
       Ratings
       Final
                        205            48                20                 32                  0
       Ratings

        Total           240            77                22                 40                 26

       Source: VA OIG analysis of provisional and final rating decisions completed from April 19, 2013,
       through June 19, 2013, under VBA’s Special Initiative




VA Office of Inspector General                                                                            13
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Inaccuracies        Available evidence showed that 22 of the 77 cases we identified with
Affecting           processing errors affected veterans’ benefits. The errors resulted in
Benefits            479 improper regular monthly payments to 22 veterans totaling
                    $175,835 from September 2006 through September 2013.

                    Details on the most significant overpayment and underpayment follow:

                    	 An RVSR at the Waco VARO completed a final rating decision and
                       correctly granted a veteran entitlement to an additional special monthly
                       benefit based on blindness in both eyes. However, the effective date of
                       February 3, 2012, was incorrect because the date used to calculate
                       benefits was not the date of entitlement. The actual date of entitlement to
                       benefits was March 7, 2013. As a result, VA overpaid the veteran
                       $45,055 over a period of 13 months.
                    	 An RVSR at the Lincoln VARO completed a final rating decision but did
                       not assign additional compensation for a veteran’s disabilities affecting
                       both arms and legs, as required by VBA policy. As a result, VA
                       underpaid the veteran $15,942 over a period of 7 years.

Inaccuracies        In 40 cases, we identified processing errors that had the potential to affect
With the            veterans’ benefits. These included cases where the inaccuracies did not
Potential to
Affect Benefits
                    impact current compensation payments but could impact future benefits. For
                    example, such errors could affect future compensation payments if veterans
                    claim additional disabilities or if their current disabilities improve or worsen.
                    In other cases, we could not determine whether or not the inaccuracies would
                    impact compensation payments due to a lack of evidence in the claims files.

Inaccuracies        VARO staff failed to comply with VBA’s policy for provisional ratings in
Not Affecting       26 cases. These were procedural errors that did not affect veterans’ benefits.
Benefits
                    In some cases, VARO staff issued provisional ratings prior to obtaining the
                    minimal required evidence. In other cases, VARO staff did not establish all
                    of the required controls in the electronic system needed for tracking and
                    follow-up actions on provisional ratings.

Conclusion          VARO management and staff did not always follow VBA policy and
                    inaccurately processed claims under the Special Initiative. Pressure to
                    complete claims by VBA’s 60-day deadline led to staff making decisions
                    without all necessary evidence and management discontinuing local quality
                    reviews. Further, VBA implemented a provisional rating policy that was
                    significantly different from existing procedures, and VAROs sometimes
                    interpreted the new policy incorrectly. VBA’s Director of Compensation
                    Service conceded VAROs had numerous questions about the policy and
                    could have interpreted the guidance inconsistently. We project VARO staff
                    inaccurately processed 17,600 of 56,500 claims, resulting in $40.4 million in
                    improper payments.




VA Office of Inspector General                                                                    14
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    Recommendation

                    4.	 We recommended the Under Secretary for Benefits implement actions to
                        complete quality reviews to ensure accuracy of all provisionally-rated
                        claims processed under this Special Initiative.

Management          The Under Secretary for Benefits concurred with our recommendation and
Comments            has directed VARO Quality Review Specialists to conduct reviews of all
                    provisional rating decisions to determine if the ratings were completed
                    properly. VBA anticipates completion of this review by September 1, 2014.

OIG Response        The Under Secretary for Benefit comments and actions are responsive to the
                    recommendation.




VA Office of Inspector General                                                                    15
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix A          Background

Purpose of          The Special Initiative to Process Rating Claims Pending Over 2 Years was
VBA’s Special       the first in a series of efforts by VBA to address their oldest claims. At the
Initiative
                    end of March 2013, VBA reported nearly 43,000 rating claims were pending
                    more than 2 years. VBA attributed its aging claims inventory to various
                    reasons, including competing workload priorities and insufficient human
                    capital resources. VBA’s intent with the Special Initiative was to prioritize
                    and complete all claims received on or before July 1, 2011, within 60 days
                    from April 19, 2013, the start of the initiative.

VBA Guidance        VBA directed VAROs to devote all necessary personnel to ensure all 2-year
for                 old claims were completed. According to VBA, VARO staff were to
Implementing
the Special
                    immediately process these claims and develop an aggressive plan based on
Initiative          the available evidence in the veterans’ claims folders. VBA directed VARO
                    staff to consider two categories when processing these claims:

                    Category 1 Cases (Final Decisions): VAROs were to issue rating decisions
                    as normal for ready-to-rate cases that met the 2-year old criteria and for cases
                    where the rating provided the highest evaluation authorized in VA’s
                    Schedule for Rating Disabilities for each claimed issue. These were to be
                    considered final decisions and appeal rights were to be provided.

                    Category 2 Cases (Provisional Decisions): VAROs were to issue
                    provisional rating decisions for other 2-year old cases even if VA was still
                    waiting for certain evidence. VBA stated these provisional decisions would
                    allow eligible veterans to begin collecting compensation benefits more
                    quickly. RVSRs were instructed to complete these claims based on the
                    available evidence of record, as long as the appropriate notice was provided
                    to the veteran, unless the following requests for evidence were outstanding:

                       Service treatment records
                       VA medical records
                       Any evidence needed to establish veteran status or pertinent service dates
                       VA examinations, if required

                    In any case where the VARO was waiting for VA examination results, staff
                    were directed to contact the appropriate examination provider to expedite
                    completion of the required examination so that a decision could be issued
                    promptly. New examinations were to be ordered only when they were
                    required to decide the claim. Further, no appeal rights were to be provided
                    since the decisions were considered provisional. If the VARO staff received
                    all of the evidence at any time during the 1-year period after it issued the
                    provisional decision, they were to take the appropriate adjudicative action
                    and issue a final rating decision with appeal rights. After 1 year, or earlier if


VA Office of Inspector General                                                                    16
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                    the veteran made a request, the veteran was to be notified that the claim was
                    final and provided appeal rights.

                    The Special Initiative required VARO staff to input end products in the
                    electronic system to develop claims for additional evidence. End products
                    are the work units VBA uses to properly control pending workloads and
                    appropriately measure work credit. End products have specific codes to
                    identify types of claims or actions required. VAROs were also required to
                    assess all claims with provisional ratings 1 year from the date of notification
                    and provide final decisions with appeal rights. Therefore, they had to
                    establish additional end products or diaries in the electronic system to remind
                    them of the need to review these cases. Diaries are processing commands
                    that establish dates when VARO staff must take future actions. When the
                    diaries mature, the electronic system will generate reminder notifications for
                    VARO staff to provide final decisions. Finally, VARO staff were required to
                    identify these controls as related to provisional ratings because they were not
                    used exclusively for this purpose.




VA Office of Inspector General                                                                    17
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix B          Scope and Methodology

Scope               We conducted our review from July 2013 through April 2014. The review
                    focused on a population of about 56,500 rating claims received on or before
                    July 1, 2011, that were completed from April 19, 2013, through
                    June 19, 2013. We used VBA’s Corporate Database to identify these claims.

Methodology         To accomplish our objectives, we reviewed applicable laws, regulations,
                    policies, procedures, and guidelines. We also interviewed appropriate
                    management and employees. In coordination with the VA Office of
                    Inspector General statistician, we developed a sampling methodology that
                    required the review of eight VAROs nationwide. We inspected the
                    Cleveland, Ohio; Columbia, South Carolina; Houston, Texas; Huntington,
                    West Virginia; Lincoln, Nebraska; Los Angeles, California; New York, New
                    York; and Waco, Texas VAROs between September 2013 and
                    December 2013. We reviewed 30 claims selected statistically from each of
                    the 8 VAROs, totaling 240 claims. For each of the 240 sampled claims, we
                    reviewed claims folders as well as electronic records and determined whether
                    they received provisional or final ratings. Appendix C provides details on
                    the statistical sampling methodology and projections.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    review objectives. Our comparison of the data with information contained in
                    the veterans’ claims folders reviewed as part of our review of the eight
                    VAROs did not disclose any problems with data reliability.

Government          We conducted this review in accordance with the Council of the Inspectors
Standards           General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation. We planned and performed the review to obtain sufficient,
                    appropriate evidence to provide a reasonable basis for our findings and
                    conclusions based on our review objectives. We believe that the evidence
                    obtained provides a reasonable basis for our findings and conclusions based
                    on our review objectives.




VA Office of Inspector General                                                                    18
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix C 	 Comparison of Intermediate and Provisional Rating
             Processes

                     Table 2 compares VBA’s Intermediate and Provisional Rating Processes.

                Table 2. Comparison of Intermediate and Provisional Rating Processes
      VBA Policy              Intermediate Ratings                         Provisional Ratings
      Evidence             Any evidence that allows a              Specific evidence required,
      Requirements          claimed issue to be granted              whether or not benefits can be
                                                                     granted
                                                                    Evidence requirements:
                                                                      appropriate notice to veterans
                                                                      no outstanding requests for
                                                                         service treatment records, VA
                                                                         medical records, required VA
                                                                         medical examinations, and
                                                                         documentation of veteran
                                                                         status or pertinent service dates
      Decisions            Benefits granted for at least           No requirement to grant benefits
      Allowed               one issue                               All issues either provisionally
                           Decisions made on all                    granted or denied
                            claimed issues for which                No issues deferred
                            sufficient evidence is
                            obtained and benefits can be
                            granted
                           Decisions deferred on all
                            issues requiring additional
                            evidence
      Claim Status         Claim remains pending from              Claim closed upon provisional
                            date of receipt until all issues         rating issuance, although all
                            are decided                              evidence not received
                                                                    New claim subsequently
                                                                     established upon receipt of
                                                                     additional evidence
                                                                    New claim closed upon final rating
                                                                     decision
      Management           Existing electronic system              New electronic system controls
      Control               controls used to manage and              established to manage and
                            complete claims                          complete claims
      Appeal               Appeal rights provided for              No appeal rights provided until
      Rights                all decisions on claimed                 claim decisions are finalized
                            issues
        Source: VA OIG analysis of VBA policies for intermediate and provisional ratings




VA Office of Inspector General                                                                          19
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix D          Statistical Sampling Methodology

Approach            We reviewed a representative sample of rating claims completed during the
                    Special Initiative to determine whether VBA followed policy and accurately
                    processed rating claims, and to assess the effectiveness of VBA’s policy for
                    completing provisional ratings in providing veterans compensation benefits
                    more quickly and helping to eliminate VBA’s claims backlog. We used
                    statistical sampling to quantify the number of errors VARO staff could have
                    made, project potential monetary impact, estimate the number of provisional
                    ratings still requiring final decisions as of June 2013 and January 2014, and
                    rating claims average days pending as of June 2013.

Population          The population included about 56,500 rating claims received on or before
                    July 1, 2011, that were completed during VBA’s Special Initiative from
                    April 19, 2013, through June 19, 2013. We excluded the VAROs in
                    Anchorage, Alaska; Honolulu, Hawaii; Manila, Philippines; and San Juan,
                    Puerto Rico from the universe due to the increased cost of travel to those
                    areas. Additionally, we excluded the Washington, D.C. VARO and Appeals
                    Management Center from the universe. Together, these 6 offices represented
                    1,347 claims that were removed from the universe.

Sampling Design     We conducted a two-stage random sample. In the first stage, we selected
                    8 statistically-sampled VAROs from 53 sites using a Probability Proportional
                    to Size sampling approach. In the second stage, we selected a random
                    sample of 30 claims from each of the selected VAROs totaling 240 claims
                    completed. All claims had the same probability of being selected to allow
                    making a projection over the whole population from all 53 sites.

                    Table 3 provides the number of completed claims at the eight VAROs
                    selected during the period of April 19, 2013, through June 19, 2013.

                                 Table 3. Number of Completed Claims at Sample Sites
                                 VARO Location                               Number of Claims
                     Cleveland, Ohio                                                 03,779
                     Columbia, South Carolina                                        02,052
                     Houston, Texas                                                  03,096
                     Huntington, West Virginia                                       000953
                     Lincoln, Nebraska                                               01,036
                     Los Angeles, California                                         01,932
                     New York, New York                                              01,180
                     Waco, Texas                                                     04,900
                      Total                                                          18,928
                     Source: VA OIG analysis of the universe of VA’s rating claims completed from

                     April 19, 2013, through June 19, 2013, under VBA’s Special Initiative for selected sites





VA Office of Inspector General                                                                               20
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Weights              We calculated estimates in this report using weighted sample data. Sampling
                     weights are computed by taking the product of the inverse of the
                     probabilities of selection at each stage of sampling.

Projections          We used WesVar software to calculate the weighted universe estimates and
and Margins of       associated sampling errors. WesVar employs replication methodology to
Error
                     calculate margins of error and confidence intervals that correctly account for
                     the complexity of the sample design.

                     The margins of error and confidence intervals are indicators of the precision
                     of the estimates. If we repeated this review with multiple samples, the
                     confidence intervals would differ for each sample but would include the true
                     population value 90 percent of the time. For example, we are 90 percent
                     confident the true universe of processing errors for claims completed during
                     the Special Initiative is between 15,100 and 20,200. For each estimate, we
                     used the midpoint of the 90 percent confidence interval.

                     Table 4 shows the review projections for the attributes described.

              Table 4. Summary of Projections and Confidence Intervals ($ in millions)

                                                                        Lower Limit        Upper Limit
                                                                            90%               90%
                         Results                       Projections
                                                                        Confidence         Confidence
                                                                          Interval          Interval
       Provisionally-Rated Claims Awaiting
       Final Decisions June 2013                          7,823             7,624               8,021

       Rating Claims Average Days Pending
                                                          244.5             243.9               245.0
       June 2013
       Provisionally-Rated Claims Awaiting
                                                          6,860             6,593               7,127
       Final Decisions January 2014

       Processing Errors—Claims*                         17,600            15,100             20,200


       Processing Errors—Amounts*                         $40.4             $20.6               $60.3

       Source: VA OIG statistician’s projection of status of claims, rating claims average days pending, and
       processing errors
       * Indicates projections have been rounded




VA Office of Inspector General                                                                           21
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix E          Potential Monetary Benefits in Accordance                                 With
                    Inspector General Act Amendments



                                                               Better Use of        Questioned
      Recommendation             Explanation of Benefits
                                                                  Funds               Costs



                                 We estimated claims
                                 processing inaccuracies
               4                                                     $0             $40,400,000
                                 resulted in improper
                                 payments of $40.4 million.


                                                     Total           $0             $40,400,000




VA Office of Inspector General                                                                    22
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix F           Under Secretary for Benefits Comments




                 Department of                            Memorandum
                 Veterans Affairs

         Date:     July 10, 2014

         From:     Under Secretary for Benefits (20)


         Subj:     OIG Draft Report—Review of the Special Initiative To Process Rating

                   Claims Pending Over 2 Years


           To:     Assistant Inspector General for Audits and Evaluations (52)



                   1. 	 Attached is VBA’s response to the OIG’s Draft Report: Review of the
                        Special Initiative To Process Rating Claims Pending Over 2 Years

                   2. 
 Please refer questions to Christine Ras, Program Analyst, at 461-
                        9057.





                    Attachment




VA Office of Inspector General                                                                     23
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


                                                                                               Attachment
                                 Veterans Benefits Administration (VBA)
                                    Comments on OIG Draft Report
            Review of the Special Initiative To Process Rating Claims Pending Over 2 Years

The Veterans Benefits Administration provides the following comments:

In March 2013, the claims backlog hit its peak at 611,000 claims. The Department of Veterans Affairs (VA)
launched a special initiative in April 2013 to issue decisions on the oldest claims in the disability claims
backlog. Over 513,000 of the longest-pending claims were covered under this initiative, including nearly
500,000 claims that received final ratings based on the availability of all relevant evidence. Approximately
14,800 of these Veterans (less than 3 percent) received “provisional” rating decisions if evidence was
outstanding, but all essential evidence, such as VA examinations and service treatment records, were
available.

Provisional decisions were issued during this initiative in order to provide benefits more quickly to eligible
Veterans who had been waiting the longest for decisions on their claims, while at the same time giving them
an additional 1-Year safety net to submit further evidence should it become available, before a final decision.

At anytime during the 1-year timeframe, Veterans could indicate that they did not have additional information
and request that the provisional decision be made final. In all cases, Veterans have the same statutory 1-
year period to appeal the final decision if they disagree.

The purpose of the provisional decisions was to get benefits to Veterans more quickly. Veterans who
received provisional decisions had an additional one-year period to submit further evidence or seek review.
The final rating process provides further assurance that Veterans who received provisional decisions are
receiving the benefits they have earned.

The following comments are submitted in response to the recommendations in the OIG draft report:

Recommendation 1: We recommend the Under Secretary for Benefits implement a plan to identify all
provisionally rated claims and ensure the proper controls are entered in the electronic system to track,
manage, and complete them.
VBA Response: Concur. The Under Secretary for Benefits directed a complete review of all provisional
rating decisions on June 2, 2014. VBA’s Compensation Service issued Fast Letter 14-05, “Finalizing and
File Review: Provisional Ratings on Two and One Year Old Claims”, directing all regional office Quality
Review Teams to review all provisional decisions to determine if the ratings were completed properly, if a
final rating is now warranted, or if further development is necessary. The final ratings will be completed no
later than September 1, 2014, or at least one year after the provisional rating was issued (whichever is later),
unless additional evidence needed to correctly decide the claim remains outstanding. The Fast Letter also
included instructions for proper control of these claims in VBA’s electronic processing system.
Compensation Service is working closely with the Office of Field Operations and the Area Offices to ensure
proper tracking and reporting of the status of the provisional claim review through to completion of all final
rating decisions.

Target completion date: September 1, 2014.

Recommendation 2: We recommend the Under Secretary for Benefits implement actions to include
provisionally rated claims in the rating inventory and correct the aging of provisional claims in pending
workload statistics.

VBA Response: Concur in principle. VBA agrees that it is essential to track the provisional claim reviews
and ensure that any additional benefits due to these Veterans are paid from the original date of claim. We



VA Office of Inspector General                                                                           24
                      Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


have established procedures to closely monitor and track these claims under end product (EP) 934. At the
time the provisional decision was issued, the regional office received appropriate work credit for deciding a
rating claim. Veterans were then given a year to provide evidence for consideration before a final decision is
rendered. Assigning another rating EP to the final decision on these claims would be inappropriate, as the
regional office already received all appropriate work credit. The 934 EP is a “non-credit” EP, and therefore
not counted as a second completed claim in a regional office’s production numbers. VA will continue to work
with the OIG to ensure careful monitoring and expeditious handling of these claims.

Target completion date: September 1, 2014.

Recommendation 3: We recommend the Under Secretary for Benefits implement a plan to expedite final
decisions on all issues in provisionally-rated claims.

VBA Response: Concur. As discussed in response to the previous recommendations, Fast Letter 14-05,
“Finalizing and File Review: Provisional Ratings on Two and One Year Old Claims”, dated June 2, 2014,
provides direction to the ROs on the review and finalization of provisional rating decisions.

Target Completion Date: September 1, 2014

Recommendation 4: We recommend the Under Secretary for Benefits implement actions to complete quality
reviews to ensure accuracy of all provisionally rated claims processed under this special initiative.

VBA Response: Concur. As provided in Fast Letter 14-05, “Finalizing and File Review: Provisional Ratings
on Two and One Year Old Claims”, dated June 2, 2014, regional office Quality Review Specialists are
conducting the reviews of all provisional rating decisions to determine if the ratings were completed properly.
If additional actions are required, the Quality Review Specialists will provide directed development.
Compensation Service is working closely with the Office of Field Operations and the Area Offices to ensure
proper tracking and reporting.

Target completion date: September 1, 2014.




VA Office of Inspector General                                                                           25
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix G          Office of Inspector                General        Contact        and      Staff
                    Acknowledgments

                      OIG Contact 	                For more information about this report, please
                                                   contact the Office of Inspector General at
                                                   (202) 461-4720.

                      Acknowledgments	             Brent Arronte, Director
                                                   Ed Akitomo
                                                   Orlan Braman
                                                   Daphne Brantley
                                                   Brett Byrd
                                                   Bridget Byrd
                                                   Vinay Chadha
                                                   Michelle Elliott
                                                   Lee Giesbrecht
                                                   Ambreen Husain
                                                   Jeff Myers
                                                   David Pina
                                                   Dana Sullivan
                                                   Rachel Stroup
                                                   Nelvy Viguera Butler
                                                   Diane Wilson




VA Office of Inspector General                                                                    26
                     Review of VBA’s Special Initiative To Process Rating Claims Pending Over 2 Years


Appendix H          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




           This report is available on our Web site at http://ww.va.gov/oig.




VA Office of Inspector General                                                                    27
